   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




March 30, 2011

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Oakhurst Medical Centers, Inc.
               (A-04-10-03537)


The attached final report provides the results of our limited scope review at Oakhurst Medical
Centers, Inc. This review is part of an ongoing series of reviews performed by the Office of
Inspector General (OIG) to provide oversight of funds provided by the American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
6 months. If you have any questions or comments about this report, please do not hesitate to call
me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report
number A-04-10-03537 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
REVIEW AT OAKHURST MEDICAL
       CENTERS, INC.




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-04-10-03537
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within the U.S. Department
of Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center Program. The HRSA health centers are community-based and
patient-directed organizations that serve populations with limited access to health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: (1) new access points, (2) increased demand for services (IDS), (3) facilities
investment program, and (4) capital improvement program (CIP). Recovery Act grants were
provided to both new and existing health centers and a center was permitted to receive more than
one type of grant.

Established in 1978, Oakhurst Medical Centers, Inc. (Oakhurst) is an independent nonprofit
primary health care provider. It served 11,028 patients in 2009, of which 37 percent were
uninsured, at 2 service sites in DeKalb County, Georgia. Oakhurst’s medical services included
family practice, pediatrics, obstetrics and gynecological services (OB/GYN), internal medicine,
radiology, laboratory services, pharmacy services, mental health services, and other specialties.

On March 16, 2009, Oakhurst applied for Recovery Act IDS grant funding to increase OB/GYN
services by adding two additional days of services with one physician, and a part-time nurse
practitioner position. According to Oakhurst’s IDS grant application, the funding would also
enable Oakhurst to provide prenatal care and increased medical services and pharmacy capacity.
On March 27, 2009, HRSA awarded Oakhurst a $245,585 IDS grant.

On June 2, 2009, Oakhurst applied for Recovery Act CIP grant funding to expand the facility to
accommodate three additional exam rooms, expand the waiting rooms for pediatrics and
OB/GYN patients, replace the heating, ventilating, and air conditioning systems and roof, and
expand the parking lot. According to Oakhurst’s CIP grant application, the funding would
improve quality of care. On June 25, 2009, HRSA awarded Oakhurst a $605,040 CIP grant.




                                                 i
OBJECTIVE

Our objective was to assess Oakhurst’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, Oakhurst’s financial viability improved over the time of our audit
period. It has the ability to manage and account for Federal funds and to operate a health center
in accordance with Federal regulations. However, we identified a weakness in Oakhurst’s
controls over its contracting process.

RECOMMENDATION

When monitoring Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Oakhurst’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

OAKHURST MEDICAL CENTERS COMMENTS

In written comments on our draft report, Oakhurst did not comment on our finding regarding its
improved financial viability and agreed with our finding regarding insufficient controls over its
contracting process. Oakhurst said that the CEO has no financial interest or any operating
capacity in the contractor’s company. According to Oakhurst, the CEO assisted the contractor in
incorporating years before CIP funding was available. Oakhurst said that the Board was
integrally involved in the planning and oversight of the project and empowered the CEO to make
the final decision. Oakhurst also outlined actions it had taken to strengthen its contracting
controls.

Oakhurst provided additional information in its response regarding controls over its procurement
process. Oakhurst’s comments are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We did not find any evidence that the Board had empowered the CEO to make the final decision
on selecting the winning bid or the reasoning behind the selection of the winning bidder.
Therefore, we maintain our finding regarding Oakhurst’s contracting process.

After reviewing Oakhurst’s comments, we deleted the finding regarding controls over its
procurement process.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              The Health Center Program ................................................................................... 1
              Oakhurst Medical Centers, Inc. ............................................................................. 1
              Requirements for Federal Grantees ....................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................... 2
               Objective ................................................................................................................ 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 3

FINDINGS AND RECOMMENDATION................................................................................. 3

          FINANCIAL VIABILITY ................................................................................................. 3

          INSUFFICIENT CONTROLS OVER CONTRACTING ................................................. 4

          RECOMMENDATION ..................................................................................................... 5

          OAKHURST MEDICAL CENTERS COMMENTS ........................................................ 5

          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................ 6

APPENDIX

          OAKHURST MEDICAL CENTERS, INC. COMMENTS




                                                                     iii
                                       INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Within the U.S. Department of Health & Human Services (HHS), the Health
Resources and Services Administration (HRSA) administers the Health Center Program.

The Health Center Program is a national program that provides grants to nonprofit private or
public entities that serve designated medically underserved populations and areas and vulnerable
populations composed of migrant and seasonal farm workers, the homeless, and residents of
public housing. Health centers funded by HRSA are community-based and patient-directed
organizations meeting the definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers; $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems; and $500 million to address health
profession workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: (1) new access points, (2) increased demand for services (IDS), (3) facilities
investment program, and (4) capital improvement program (CIP). Recovery Act grants were
provided to both new and existing health centers, and a center was permitted to receive more
than one type of grant.

Oakhurst Medical Centers, Inc.

Established in 1978, Oakhurst Medical Centers, Inc. (Oakhurst) is an independent nonprofit
primary health care provider. It served 11,028 patients in 2009, of which 37 percent were
uninsured, at 2 service sites in DeKalb County, Georgia. Oakhurst’s medical services included
family practice, pediatrics, obstetrics and gynecological services (OB/GYN), internal medicine,
radiology, laboratory services, pharmacy services, mental health services, and other specialties.

On March 16, 2009, Oakhurst applied for Recovery Act IDS grant funding to increase OB/GYN
services by adding two additional days of services with one physician and a part-time nurse
practitioner position. According to Oakhurst’s IDS grant application, the funding would also
enable Oakhurst to provide prenatal care and increased medical services and pharmacy capacity.
On March 27, 2009, HRSA awarded Oakhurst a $245,585 IDS grant.

On June 2, 2009, Oakhurst applied for Recovery Act CIP grant funding to expand the facility to
accommodate three additional exam rooms, expand the waiting rooms for pediatrics and



                                                1
OB/GYN patients, replace the heating, ventilating, and air conditioning systems and roof, and
expand the parking lot. According to Oakhurst’s CIP grant application, the funding would
improve quality of care. On June 25, 2009, HRSA awarded Oakhurst a $605,040 CIP grant.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR part 230, Cost Principles for Non-profit Organizations (formerly Office of
Management and Budget Circular A-122). In addition, 42 U.S.C. § 254(b) defines requirements
for health centers under the Health Center Program.

The Standards for Financial Management Systems found at 45 CFR § 74.21 establish regulations
for grantees to maintain financial management systems. Grantees’ financial management
systems must provide for accurate, current, and complete disclosure of the financial results of
each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that accounting
records are supported by source documentation (§ 74.21(b)(7)); and must provide effective
control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. Federal regulations also require grantees to deposit
and maintain advances of Federal funds in insured accounts whenever possible (45 CFR
§ 74.22(i)(2)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Oakhurst’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

Scope

We conducted a limited review to assess Oakhurst’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of Oakhurst’s internal control structure. Rather, we performed limited tests and other
auditing procedures on Oakhurst’s financial management system to assess its ability to
administer federally funded projects. Our review period was January 1, 2006, through December
31, 2009.

We performed our fieldwork at Oakhurst’s administrative office in Stone Mountain, Georgia, in
April and October 2010.



                                                 2
Methodology

To accomplish our objective, we:

   •   reviewed relevant Federal laws, regulations, and guidance, including HRSA program and
       policy announcements;

   •   obtained and reviewed Oakhurst’s HRSA grant application packages and supporting
       documentation;

   •   interviewed Oakhurst personnel to gain an understanding of its accounting systems and
       internal controls;

   •   reviewed Oakhurst’s fiscal procedures related to accounting documentation and
       preparation of financial reports;

   •   performed ratio analyses of Oakhurst’s financial statements;

   •   reviewed Oakhurst’s audited financial statements for fiscal years (FY) 2005 through
       2009;

   •   reviewed Oakhurst’s by-laws;

   •   reviewed minutes from Oakhurst’s Board of Director meetings; and

   •   discussed the results of our review with Oakhurst officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, Oakhurst’s financial viability improved over the time of our audit
period. It has the ability to manage and account for Federal funds and to operate a health center
in accordance with Federal regulations. However, we identified a weakness in Oakhurst’s
controls over its contracting process.

FINANCIAL VIABILITY

To determine whether Oakhurst was financially viable, we performed stability and liquidity
analyses of Oakhurst’s finances for FYs 2005 through 2009. Our analyses of Oakhurst’s
financial status indicated that Oakhurst’s financial condition was generally improving during this
period, albeit from a poor starting point.


                                                3
Based on its net asset and debt ratios, Oakhurst’s financial stability showed significant
improvement over the audit period.

                                       Stability Measures
                           2005        2006         2007              2008           2009
    Net Asset Ratio        (.14)       (.04)        (.04)              .12            .21
    Debt Ratio             1.30         1.10        1.10               .66            .37

Negative ratios (shown in parentheses) indicate that Oakhurst at one time had a negative
unrestricted net asset balance and, therefore, had no reserve to meet temporary cash shortages,
emergencies, or deficit situations in the future. As of December 31, 2008, that number turned
positive and remained so in 2009. A debt ratio is used to determine the overall financial risk and
if greater than 1, indicates that a company has more debts than assets.

                                       Liquidity Measures
                        2005           2006         2007              2008            2009
    Quick Ratio          .16            .26          .29               .52            1.38
    Current Ratio        .13            .22          .27               .49            1.22
    Net Working
      Capital         ($949,663)   ($673,983)        ($720,791)      $64,858       $1,159,496
    Revenues in
     Excess of
     Expenses         $165,724      $361,385          $4,322        $924,565       $1,086,288

Quick and current ratios greater than 1 are considered good. Oakhurst met this threshold in
2009. The net working capital for 2009 equaled approximately 1.36 months of expenditures. In
addition, revenues exceeded expenses in each of the 5 years reviewed.

Oakhurst’s Board of Directors attributed the improvement in financial condition to decisive
actions it took in late 2004. The Board replaced the administrative staff with the current
administrative staff, and the Board became more actively involved, including getting more
detailed financial information. The HRSA Bureau of Primary Health Care noted the positive
trend in Oakhurst’s financial condition during its site visit in 2008.

Although Oakhurst was in poor financial condition in 2005, the positive financial trends in
subsequent years show that Oakhurst is moving toward strengthening its financial viability.

INSUFFICIENT CONTROLS OVER CONTRACTING

Pursuant to 45 CFR § 74.42, no employee, officer, or agent shall participate in the selection,
award, or administration of a contract supported by Federal funds if a real or apparent conflict of
interest would be involved. Such a conflict would arise when the employee, officer, agent, or
any member of his or her immediate family, his or her partner, or an organization which employs
or is about to employ any of the parties indicated herein, has a financial or other interest in the
firm selected for an award.


                                                 4
Section 16 of Oakhurst’s Financial and Management Information System Policies and
Procedures Manual states,

       No employee, officer or agent shall participate in the selection, award or
       administration of a contract in which Federal funds are used, where, to his
       knowledge, he or his immediate family, partners, or organization in which he or
       his immediate family or partner has a financial interest or with whom he is
       negotiating or has any arrangement concerning prospective employment. No
       officer, employee or agent shall solicit or accept gratuities, favors or anything of
       monetary value from contractors or potential contractors.

Oakhurst’s Chief Executive Officer (CEO) is the registered agent for RBS Inc., the Georgia
Corporation that received the contract to work on a major construction project funded through
the grant. Board of Directors’ minutes and contract bidding files did not disclose this
relationship or indicate a recusal on the part of the CEO from participating in the contract
negotiations. In addition, while there was evidence that a competitive bidding process was
undertaken, there was no evidence of formal Board approval of the winning bid and the
reasoning behind the selection of the winning bidder.

This apparent conflict of interest occurred because Oakhurst’s Board of Directors did not provide
adequate oversight over the review and approval of bids relating to construction under its HRSA
CIP grant. Without evidence of a clear and open bidding process, and documentation of Board
involvement and approval of the winning bids, Oakhurst’s contracting processes could result in
the improper expenditure of Federal funds.

RECOMMENDATION

When monitoring Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Oakhurst’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

OAKHURST MEDICAL CENTERS COMMENTS

In written comments on our draft report, Oakhurst did not comment on our finding regarding its
improved financial viability and agreed with our finding regarding insufficient controls over its
contracting process. Oakhurst said that the CEO has no financial interest or any operating
capacity in the contractor’s company. According to Oakhurst, the CEO assisted the contractor in
incorporating years before CIP funding was available. Oakhurst said that the Board was
integrally involved in the planning and oversight of the project and empowered the CEO to make
the final decision. Oakhurst also outlined actions it had taken to strengthen its contracting
controls.

Oakhurst provided additional information in its response regarding controls over its procurement
process. Oakhurst’s comments are included as the Appendix.




                                                 5
OFFICE OF INSPECTOR GENERAL RESPONSE

We did not find any evidence that the Board had empowered the CEO to make the final decision
on selecting the winning bid or the reasoning behind the selection of the winning bidder.
Therefore, we maintain our finding regarding Oakhurst’s contracting process.

After reviewing Oakhurst’s comments, we deleted the finding regarding controls over its
procurement process.




                                               6
APPENDIX
APPENDIX: OAKHURST MEDICAL CENTERS, INC. COMMENTS 





             Oakhurst 

             Medical Centers, Inc.
 770 Village Square Drive, Stone Mountain, GA 30083                  Office: 404-298-8998
 www.oakhurstmedical.org                                             Fax: 404-298-7658

 February 15, 2011

 Mr. John Drake
 Office of Audit Services, Region IV
 61 Forsyth Street, NW Sutie 3T41
 Atlanta, GA 30303

 RE: Report Number A-04-10-03537 dated February 15, 2011

 Dear Mr. Drake,

 This letter is to submit comments on the above reference report. The report cites two financial weaknesses in
 Oakhurst's financial management. Below is the response to the weaknesses:

Insufficient Controls over Contracting
Oakhurst will adhere to its policies and procedures over contracting so that apparent conflicts do not exist
between employees, officers or agents and outside contractors. Also, the board will review all bids and
contracts of the organization at a minimum through the finance committee. The CEO's name has been
removed from the contractor as the registered agent. This was simply an oversight. The CEO assisted the
contractor in incorporating years before CIP funding was made available. The CEO has no financial interest
nor has any operating capacity in the contractor's company.

The board was integrally involved in the planning and oversight of the project and empowered the CEO to
make the final decision . The board was also aware that bids were being competitively reviewed . All board
members and the CEO have Signed conflict of interest statements and this was an oversight. The process is
now in place to minimize anything like this happening in the future . Board conflict of interest statements are
signed and kept on file annually.




     010 Note: We deleted the remainder of Oakhurst's comments because they pertained to
     material included in the draft report but not included in this final report.



Sincerely,


 ~¥
Jeffrey Q . Taylor
                                  

Chief Executive Officer

cc: Brian Williams MD, Board Chair
